                                        December 4, 1997

MEMORANDUM FOR THE SECRETARY

FROM:         John C. Layton
              Inspector General

SUBJECT: INFORMATION: "Audit of Departmental Receipt of Final Deliverables for Grant
         Awards"

BACKGROUND:

The Department, as of July 15, 1996, administered 7,452 grants. The Government's share or
contribution for these grants was about $8 billion. Grants are used in those situations where the
award is intended to serve a public purpose and where limited Federal involvement is anticipated.
Departmental personnel have a responsibility to monitor the activities of a grantee to ensure that
the intended programmatic goal is achieved and that funds are expended in accordance with the
terms of the grant award. This is accomplished, in part, through the review and analysis of
technical and financial reports prepared by the grant recipient. The objective of this audit was to
determine whether the Department received final deliverables, detailing grantee accomplishments
and expenditure of funds, in accordance with Federal and Departmental policies and procedures.

DISCUSSION:

Many grantees did not provide final technical and financial reports. For example, at five
procurement offices audited, we projected that the Department had not received a final deliverable
on 718 inactive grants valued at about $232 million. In other cases, officials waived reporting
requirements in order to facilitate the close-out process or extended performance periods
inappropriately. Many of these deliverables were not received because the Department did not
effectively implement existing procedures or establish other mechanisms to ensure that grantees
fulfilled their obligations. Without final deliverables, the Department could not demonstrate that
the public benefit specified in the grant instrument was achieved.

We recommended that the Deputy Assistant Secretary for Procurement and Assistance
Management enhance the Departmental administration of grants by directing contracting officers
to: (1) retain a portion of the grant funding until a grantee meets the terms and conditions of the
award; (2) discontinue the practice of waiving grant reporting requirements to accommodate the
award close-out process; (3) require grantees to have met the terms and conditions of prior
awards, except in extenuating circumstances, before awarding new grants; and (4) extend grant
performance periods only in accordance with Departmental policy. The Office of Procurement
and Assistance Management generally did not concur with the audit recommendation.

Attachment
cc: Deputy Secretary
    Under Secretary
                            U.S. DEPARTMENT OF ENERGY
                           OFFICE OF INSPECTOR GENERAL




                       AUDIT OF DEPARTMENTAL RECEIPT
                  OF FINAL DELIVERABLES FOR GRANT AWARDS




The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                           Internet at the following alternative address:


            Department of Energy Human Resources and Administration Home Page
                                  http://www.hr.doe.gov/ig

                Your comments would be appreciated and can be provided on the
                       Customer Response Form attached to the report.

                               This report can be obtained from the
                                   U.S. Department of Energy
                          Office of Scientific and Technical Information
                                           P.O. Box 62
                                  Oak Ridge, Tennessee 37831




Report No.:DOE/IG-0415                                       Capital Regional Audit Office
Date of Issue: December 4, 1997   Germantown, Maryland 20874
                       AUDIT OF DEPARTMENTAL RECEIPT
                  OF FINAL DELIVERABLES FOR GRANT AWARDS

                                        TABLE OF CONTENTS


                                                                                                           Page

               SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          1

PART I     -   APPROACH AND OVERVIEW. . . . . . . . . . . . . . . . . . . . . . .                           3

               Introduction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    3

               Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              3

               Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       4

PART II    -   FINDING AND RECOMMENDATION. . . . . . . . . . . . . . . .                                    5

               Receipt of Final Deliverables. . . . . . . . . . . . . . . . . . . . . . . . . .             5

PART III   -   MANAGEMENT AND AUDITOR COMMENTS . . . . . . . . .                                           14

PART IV    - APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          18
                             U.S. DEPARTMENT OF ENERGY
                            OFFICE OF INSPECTOR GENERAL
                              OFFICE OF AUDIT SERVICES


                        AUDIT OF DEPARTMENTAL RECEIPT
                   OF FINAL DELIVERABLES FOR GRANT AWARDS


Audit Report Number: DOE/IG-0415

                                         SUMMARY


        To help meet legislatively mandated and programmatic mission requirements, the
Department of Energy awards grants to colleges and universities, state and local governments,
individuals, small businesses, and non-profit corporations. As of July 15, 1996, the
Department was responsible for administering over 7,400 grants with purposes ranging from
basic research to weatherizing homes. The Government's share of these grants was about
$8 billion. The objective of this audit was to determine whether the Department received final
deliverables, detailing grantee accomplishments and expenditure of funds, in accordance with
Federal and Departmental policies and procedures.

        The Code of Federal Regulations requires that grants benefit the general public. This
is demonstrated through technical and/or financial reports that each grantee is usually required
to deliver. These reports describe the final results of the grant effort. In spite of this
requirement, many grantees did not provide final technical and/or financial reports. For
example, at the five procurement offices audited, we projected that the Department had not
received final deliverables on 718 inactive grants valued at about $232 million. In other cases,
officials inappropriately extended performance periods so that the grant instrument would
continue to be classified as active.

        This non-reporting occurred because the Department did not effectively implement
existing procedures or establish other monitoring procedures that ensured grantees fulfilled
their grant obligations. Specifically, the Department did not establish procedures to withhold
payment if a grantee failed to comply with grant terms and conditions. In addition, the
Department did not defer additional awards to grantees that had not met the terms and
conditions of prior grants and inappropriately extended grant performance periods for
excessive periods of time. Further, Departmental personnel waived reporting requirements in
order to close out grant awards.
       To ensure that there is a proper accounting for grant activities, we recommended that
the Department: (1) retain a portion of the award amount until the grantee meets all the terms
and conditions of the grant, (2) discontinue the practice of waiving grant deliverables to
accommodate the award close-out process, (3) award additional grants to grantees only when
they have met the terms and conditions of prior awards, and (4) extend grant performance
periods only when appropriate.

        The audit recommendations are consistent with the intent of the Government Performance
and Results Act of 1993. This Act stresses the importance of developing performance
expectations and measuring outputs and outcomes. For grants, the Department needs to compare
actual results with established goals and employ available mechanisms to ensure that taxpayers
receive value for their investment.



                                             _______/s/_____________
                                             Office of Inspector General




                                                2
                                              PART I

                                APPROACH AND OVERVIEW


INTRODUCTION

        The U.S. Department of Energy, as of July 15, 1996, administered 7,452 grants. The
Government's share or contribution for these grants was about $8 billion. The Department
has traditionally utilized grants for activities such as facilitating scientific research, state and
local energy assistance programs, and educational pursuits.

        Grants are issued in those situations where the award is intended to serve a public
purpose and where limited Federal involvement is anticipated. Departmental personnel have a
responsibility to monitor the activities of a grantee to ensure that the intended programmatic
goal is achieved and that funds are expended in accordance with the terms of the grant award.
This is accomplished, in part, through the review and analysis of technical and financial reports
prepared by the grant recipient.

        The objective of this audit was to determine whether the Department received final
deliverables, detailing grantee accomplishments and expenditure of funds, in accordance with
Federal and Departmental policies and procedures.

SCOPE AND METHODOLOGY

        To accomplish the audit objective, applicable Public Law, and Code of Federal
Regulations (CFR) requirements were reviewed. In addition, Office of Management and
Budget circulars and Department of Energy Orders and guidance were analyzed to determine
Departmental responsibilities. Meetings were also held with representatives from the Office of
Procurement and Assistance Management at Headquarters and with grants administrators in
field organizations to understand applicable policies and procedures. A discussion was also
held with officials from the U.S. Department of Health and Human Services on their grants
administration policies and procedures.

        Detailed audit fieldwork was performed at Headquarters, Chicago and Oak Ridge
Operations Offices, the Federal Energy Technology Center-Pittsburgh Site, and the Chicago
Regional Support Office. These five offices administered 3,757 grants with a Government
share of about $4 billion dollars. Of these grants, 2,189 with a value of about $3.2 billion
were classified as active, meaning that their performance period had not expired. The
remaining 1,568 grants, valued at $893 million, were categorized as inactive.

       As part of the audit, three statistical samples were drawn and analyzed. The first
sample examined grants, as of July 15, 1996, that had been inactive 9 months or longer. A
second sample examined grants that had been closed between February 1, 1996, and July 15,
1996. The final sample examined 92 awards that had no-cost-time extensions processed
between February 1, 1996, and July 15, 1996. For each statistical analysis, a follow-up

                                                    3
interview was conducted with procurement and programmatic personnel, as required, to
obtain additional information.

         In conducting the examination, the audit utilized computer-generated data from the
Department's Procurement and Assistance Data System (PADS). As discussed later in the
report, the system has certain limitations. The data in the system, however, was determined to
be adequate to satisfy the objective of the audit.

         The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance with
laws and regulations. Because our review was limited, it would not necessarily have disclosed
all internal control deficiencies that may have existed. Fieldwork was performed from March
to December 1996. An exit conference was waived by representatives from the Office of
Procurement and Assistance Management on November 3, 1997.

BACKGROUND

         A grant is a financial assistance instrument used by the Federal Government to transfer
money or property to a recipient to accomplish a public purpose. The Department administers
two types of grants: formula and project grants. Formula grants are used to provide aid for
weatherization of homes or for improving the energy efficiency of buildings and equipment.
Project grants are used for research, training, and construction. These grants are usually made
to institutions of higher learning.

        The Department is generally not involved in the day-to-day administration of a grant.
That responsibility is left to the grant recipient. The Department does, however, have a
responsibility to provide stewardship over the prudent expenditure of taxpayer-provided
funds. This is accomplished through technical and financial monitoring. Technical monitoring
addresses the grant recipient's compliance with the programmatic aspects of an individual
instrument, while financial monitoring provides the Department with assurance that funds are
spent in accordance with the terms of the grant award.

       Programmatic elements within the Department such as the Offices of Energy Research,
Economic Impact and Diversity, and Assistant Secretary for Energy Efficiency and Renewable
Energy are primarily responsible for soliciting and selecting grant recipients as well as
providing technical monitoring of awards. Departmental procurement offices such as the
Chicago Operations Office, Headquarters Procurement Operations, and the Chicago Regional
Support Office are responsible for the award of grants, financial monitoring, and the grant
close-out process.




                                                 4
                                            PART II

                           FINDING AND RECOMMENDATION

                                  Receipt of Final Deliverables


FINDING

         The Code of Federal Regulations requires that grants benefit the general public. The
Department is able to demonstrate public benefit through the receipt of required technical
and/or financial reports from each grantee that describe the results of the grant effort. In spite
of this requirement, many grantees did not provide final technical and financial reports. For
example, at the 5 procurement offices audited, we projected that the Department had not
received a final deliverable on 718 inactive grants with a Government share value of about
$232 million. In other cases, officials waived reporting requirements in order to facilitate the
close-out process, or extended performance periods inappropriately. Many of these
deliverables were not received because the Department did not effectively implement existing
procedures or establish other mechanisms to ensure that grantees fulfilled their obligations.
Without final deliverables, the Department of Energy could not demonstrate that the public
benefit specified in the grant instrument was achieved.

RECOMMENDATION

      We recommend that the Deputy Assistant Secretary for Procurement and Assistance
Management enhance Departmental administration of grants by directing contracting officers
to:

    1. Retain a portion of the grant funding until a grantee meets the terms and conditions of the
       award.

    2. Discontinue the practice of waiving grant reporting requirements to accommodate the
       award close-out process.

    3. Require grantees to have met the terms and conditions of prior awards, except in
       extenuating circumstances, before awarding new grants.

    4. Extend grant performance periods only in accordance with Departmental policy.


MANAGEMENT REACTION

       Departmental management generally did not agree with the recommendation.
Procurement's comments are summarized in Part III and are included verbatim in the
Appendix to the report.


                                                  5
                                   DETAILS OF FINDING


REQUIREMENTS FOR REPORTING RESULTS OF WORK PERFORMED

        The Code of Federal Regulations (Title 10, Part 600, Section 5) requires that grants be
awarded when the principal purpose of the relationship between the Department and the
recipient is to transfer money or property to accomplish a public purpose. In these
circumstances, the Department is usually not involved in the day-to-day operations of the
activity being funded.

        Although substantial involvement is not expected, the Department is required to
monitor grantee performance through the receipt and analysis of technical and financial
reports. The Department incorporates these reporting requirements into the terms and
conditions of each award. Generally, technical and financial reports are required at least
annually and often quarterly.

         Receipt and analysis of periodic reports by programmatic and contract personnel
provides the Department with a basis for evaluating grantee performance. Financial reports
summarize the use of Government funds, while technical reports delineate program
accomplishments (e.g. homes weatherized, research equipment purchased, or scientific journal
articles published).

TECHNICAL AND FINANCIAL DELIVERABLES

        Although grant recipients are required to provide reports summarizing the grantee's
technical and financial performance, many grantees did not provide final deliverables in
accordance with the terms and conditions of their original grant award. At the 5 procurement
offices audited, it was projected that the Department had not received final deliverables on
718 grants valued at $232 million. In other cases, final deliverable requirements were waived
or the performance periods were extended when the grantee did not submit a final deliverable
in accordance with the terms and conditions of the grant instrument.

        We were not able to definitively quantify the extent of non-reporting because the
Department's procurement database did not keep a complete historical record of grant
activity. For example, completion dates were periodically changed in the database to reflect
the latest procurement action. Also, once a grant was closed, information on the award was
no longer readily available from the PADS. Therefore, we were not able to track the grant
awards made in any one year to completion to ensure that final deliverables were received. To
compensate for the limitations of the database, we statistically analyzed samples of grants: (1)
inactive for 9 months or more as of July 15, 1996; (2) closed between February 1, 1996, and
July 15, 1996; and (3) processed for no-cost-time extensions between February 1, 1996, and
July 15, 1996. The results of these analyses follow.




                                                 6
Deliverables Not Received

       According to the Code of Federal Regulations (600.171), "Recipients shall submit,
within 90 calendar days after the date of completion of the award, all financial, performance,
and other reports as required by the terms and conditions of the award." The Department's
Guide To Financial Assistance further states that "Close out of awards should occur within a
reasonable period of time after the completion date of the award or date of termination. This
should normally be accomplished within nine months."

        Despite the above requirements, grantees and procurement officials were not fully
meeting the criteria for submission of final deliverables and the close out of grant instruments.
As of July 15, 1996, the 5 procurement offices had 1,096 grants, valued at $531 million, that
had been inactive for over 9 months. We statistically analyzed this population through an
examination of 127 grants to determine whether grantees were providing final deliverables.
Our analysis indicated that grantees had not provided final deliverables on 70 of the 127
grants examined. All of the awards with delinquent deliverables had remained open anywhere
from 9 months to 7 years past the completion date period established in the grant instrument.
Based on the above statistical analysis, it was projected that for the 5 field offices there were
718 grants valued at $232 million for which the final deliverable was not provided.

        The following two cases illustrate the difficulty the Department has had in obtaining
final deliverables.

    •   A grant was awarded to a university by the Oak Ridge Operations Office on
        August 16, 1988, for $271,719 to conduct a Mathematical and Numerical Study of
        Non-Linear Waves Arising in a One-Dimensional Model of a Fluidized Bed.
        Although the grant's completion date was August 14, 1991, a no-cost-time extension
        modified the completion date to May 14, 1992. As of July 15, 1996, the grant
        remained inactive for about 4 years, and the required final technical report had not
        been delivered. The administration official for this grant stated that closing grant
        instruments was not a priority and the award office has historically had problems
        closing grant instruments.

    •   Another grant valued at approximately $1.1 million was awarded to a university
        research foundation by the Oak Ridge Operations Office on May 30, 1985, for a
        project entitled "Continental Shelf Processes Affecting the Oceanography of the
        South Atlantic Bight." Although the grant's completion date was December 30, 1991,
        two no-cost-time extensions changed the completion date to September 30, 1992. As
        of July 15, 1996, the grant had remained inactive for over 3 years, and the required
        final financial report had not been delivered. The administration official for this grant
        stated that he had never seen the grant file.




                                                  7
Deliverables Waived

        At the initiation of every award, the Department and the grant recipient agree to
certain deliverable requirements. These requirements are incorporated into the grant
instrument. The deliverables (particularly the final deliverables) provide the Government with
key data on programmatic accomplishments and the cost of the grant activity.

        Despite specific grant provisions, the Department's contracting officers were waiving
final reporting requirements. To verify that the Department was obtaining final deliverables, a
sample of grants closed between February 1, 1996, and July 15, 1996, was analyzed. In total,
110 grants from the 5 procurement offices were reviewed. This analysis indicated that 11 of
the 110 grants had been closed without a final technical deliverable. In addition, a final
deliverable for five other grants in our inactive sample described under deliverables not
received had been waived by Department officials.

        The following two research and development grants were among the cases examined
where the Department had not been provided a final technical deliverable as required by the
original terms of the grant award.

    •   A grant was awarded to a center for $165,000 on September 24, 1990, to create Energy
        Sector Studies, Oil Policy and Natural Gas Outlook, and Natural Gas Export Prospects
        reports on foreign countries. Although the grant's completion date was March 23, 1993,
        two no-cost-time extensions modified the completion date to March 23, 1995. The
        required final technical report was later waived by the field office in December 1995.

    •   Another grant was awarded to a university for $30,000 on September 25, 1992, for an
        Energy Profile and Petroleum Series that would introduce companies to potentially
        lucrative energy development opportunities. Although the grant's completion date was
        September 29, 1993, a no-cost-time extension changed the completion date to March 29,
        1994. The grant was subsequently closed in March 1996 without the final technical
        report detailing the work performed.

        Additional deliverables were not received under the Department's University Research
Instrumentation Grant Program. This program provides funding to universities to purchase
research related equipment. Under the terms of the grant award, the universities were
required to report on how the grant moneys were spent. Many grant recipients, however, did
not fulfill this requirement despite attempts by some program and procurement officials to
obtain final deliverables.

        In one of the cases examined, the contract specialist wrote in April 1996:

        As you can see, the dates of the awards for these grants are from 1987 to 1990.
        Each of these universities has been sent at least three letters requesting a final
        report and has received at least one personal telephone call. We have not received
        a final report. My suggestion is that we waive a report for these grants so we can

                                                 8
       close them out. I believe further attempts to obtain a report will be unsuccessful
       also.

Based on this recommendation, the final reporting requirements were waived on eight grants
valued at $1.4 million.

Deliverables Requirements Extended

        We also reviewed active grants administered by the five procurement offices to
determine whether deliverable requirements were being extended beyond the time period
specified in the Code of Federal Regulations. According to 10 CFR 600.26 (d), a single
extension, not to exceed 12 months, may be granted on an active award "if additional time
beyond the established expiration date is needed to assure adequate completion of the original
scope of work within the funds already made available."

        In many cases, the Department was inappropriately extending the performance
periods. We statistically sampled 92 active awards that had "no-cost-time extensions." Based
on this analysis, it was determined that 20 grants had been inappropriately modified by the
field offices administering the grant instruments. As indicated in the following table, many of
the grants were modified more than once; and, in one case, a grant was modified seven times
for a period of 84 months.

                        Grants Given Inappropriate Extensions

           Grant        Government        Number of        Time of Extensions
          Number         Funding          Extensions          (in months)

             1           $199,982              3                   24
             2            337,450              3                   31
             3            549,266              2                   25
             4             45,500              2                   25
             5            721,968              4                   22
             6            399,810              2                   15
             7            328,688              6                   44
             8            803,788              1                   36
             9             60,509              5                   34
             10           146,859              3                   30
             11            23,067              7                   84
             12            60,000              1                   36
             13            50,226              2                   24
             14            45,891              2                   18
             15           332,126              2                   14
             16           178,375              3                   42
             17           101,025              2                   24
             18           258,500              3                   19
             19            51,134              5                   50
             20            70,000              1                   13
                                                   9
                       $4,764,164

        Similar extensions were disclosed in our analysis of inactive grants. Eleven of the 127
inactive grants sampled were inappropriately extended beyond the 12-month time period
specified in the Code of Federal Regulations.

GRANT MONITORING

        Final technical and financial deliverables were not received in many cases because the
Department did not effectively implement existing procedures or establish other procedures
that ensured grantees fulfilled their obligation under the terms of grant awards.

Existing Monitoring Procedures Not Implemented

         Contracting officials were not fully implementing existing procedures. The
Department has attempted to implement procedures to obtain the timely delivery of technical
and financial reports. One such procedure was Departmental followup with individual
grantees once a deliverable was identified as late. This procedure, as the previous examples
illustrate, was not always successful, and the Department did not avail itself of other
procedures at its disposal to ensure that grantees delivered products in a timely fashion.
Specifically, the Department continued to award grants to grantees who had not met the terms
and conditions of prior awards, although the Code of Federal Regulations (10 CFR 600)
states that procurement offices may withhold further awards to recipients if they fail to fulfill
their obligations. In other cases, the Department inappropriately extended grant performance
timeframes because officials were not familiar with applicable CFR requirements.




                                                 10
     Multiple Grants

        The audit identified 73 grantees who had not provided final technical or financial
reports. Twenty-eight of these grant recipients had received an award after they failed to
provide required deliverables on a previous grant. The following table provides information
on these 28 grantees and the dollar value of the awards received after they had failed to meet
the terms and conditions of a prior grant.


                               Grants Issued After Noncompliance

                                        Number of                      Total Government Share
      Number of                        Grants Issued                       of Grants Issued
       Grantees                    After Noncompliance                  After Noncompliance

            6                                1                                $ 2,869,724
            9                              2-5                                  6,887,328
            8                             6 - 10                               31,881,348
            3                             11 - 15                              21,585,280
            1                               35                                 45,693,212
            1                               66                                 21,022,915

          28                                                               $129,939,807.00


        The problem of grant recipients not providing final deliverables could be addressed if the
Department exercised its authority not to award subsequent grants until the recipient meets the
terms and conditions of an existing award. The Code of Federal Regulations prescribes that: "If a
recipient materially fails to comply with the terms and conditions of an award . . . DOE may . . .
[w]ithhold further awards for the project or program."

         To assess the propriety of making future awards to a grant recipient, the Department's
Procurement and Assistance Data System could be used to determine the status of existing
awards. PADS contains selected data on active and inactive grants administered by the
Department of Energy. Despite this capability, program and procurement officials were not using,
at the time of our review, the PADS to identify grant recipients that had a poor record of
performance.

       Inappropriate Performance Period Extensions

        We also noted that contracting officials were processing no-cost-time extensions for
excessive periods because they were unfamiliar with the criteria specified in the Code of
Federal Regulations. An official in one field office informed the audit team that they
interpreted the regulations to say any number of no-cost-time extensions could be issued if a
single extension did not exceed 12 months. An official in another field office felt that the CFR
requirements were not applicable to state and local government grants. Further, a
                                                 11
representative of the Department's Office of Policy stated that the audit team needed to
consider the CFR requirements as a "guide." When presented with some examples of grants
extended for excessive periods, the official simply responded that the situations described
were "not good."

Monitoring Procedures Need Strengthening

        In other cases, the Department did not employ available procedures to assist in
obtaining required final technical and financial reports or waived reporting requirements
simply to facilitate the close-out process. For instance, Departmental grant monitoring
guidance did not include steps to withhold a portion of the grant funds until the terms and
conditions of the award had been met. As a consequence, grantees, in some cases, were
permitted to draw down all funds prior to the completion of the grant. Additionally,
Departmental personnel were not provided any direction on waiving final deliverables.
Therefore, contracting and program personnel adopted different strategies in attempting to
obtain final deliverables.

       Grantee Drawdowns

        Officials at the field offices visited stated that the grantees generally were allowed to
draw down a majority of grant funds during the performance period. This was demonstrated
by the fact that grantees had drawn down all funds on 62 percent of grants for which the final
deliverables were not received. With the grant money fully disbursed, there was no financial
incentive for the grantee to submit required technical and financial reports.

         Departmental policy and precedent indicate that withholding a portion of the grant
funds is permissible and can be an effective tool in obtaining deliverables. For example,
according to Department regulations, cash advances to a grant recipient shall be limited to the
minimum amounts needed and be timed to be in accordance with the actual, immediate cash
requirements of the recipient organization. Withholding a portion of the funding until
completion of the award is a customary practice with Federal contracts. Further, a 1986
Office of Inspector General report observed that one of the Department's procurement offices
generally achieved on-time reporting by withholding reimbursements to grantees that did not
submit reports in a timely manner. During this audit, this practice was being used by the
Federal Energy Technology Center-Pittsburgh Site. According to a procurement official at
that site, the practice of withholding 1 percent of the grant funds until all products are
received helps motivate grantees to deliver timely technical and financial products.

       Close-out Process

        Many deliverables were waived to facilitate the grant close-out process. For example,
a grant was awarded to a state university by the Oak Ridge Operations Office for $283,340 on
September 24, 1990. The grant's completion date was September 23, 1993. The university
did not submit a final technical report, and the Operations Office subsequently waived this
reporting requirement. The grant file indicated that Departmental personnel thought that the
report was unobtainable.

                                                 12
        Departmental guidance for procurement officials does not specifically address the
propriety of waiving final reporting requirements. In our discussions with field personnel, we
found that the procurement offices adopted different practices in this regard. Officials in the
Oak Ridge and Chicago Operations Offices stated that authority to waive reports rests solely
with the office's head of procurement, and waivers are infrequently issued because technical
information is sacrificed when reporting requirements are waived. Officials in Headquarters
Procurement Operations stated that authority to waive requirements rests with individual
contracting officers, and based on our sample results, Headquarters Procurement waives
reporting requirements more frequently than any of the other offices reviewed.

BENEFIT NOT DEMONSTRATED

        The purpose of a grant is to serve the public. A grant may be used to conduct
research, provide funding to purchase research equipment for education institutions, provide
weatherization assistance for low-income persons, or upgrade hospital and school energy
systems. In awarding grants, the Department of Energy has a responsibility to ensure that the
programmatic objective of the grant is achieved and that funds are appropriately spent.
Submission of final technical and financial reports by grantees and their review of those
reports by Departmental personnel helps ensure that the goals set by the program and
stipulated in the grant instrument are met.

        Unfortunately, the Department has not been fully successful in obtaining final technical
and financial deliverables. For the 5 procurement activities reviewed, the audit projected that
grantees had not provided final deliverables on 718 inactive grants valued at $232 million.
Other grants were closed out without deliverables or inappropriately extended. Without
deliverables, the Department cannot demonstrate to the American taxpayer, on these and
other grants, that a benefit was derived from the funds provided.




                                                13
                                           PART III

                      MANAGEMENT AND AUDITOR COMMENTS


       On October 14, 1997, the Office of Procurement and Assistance Policy provided
comments on the Official Draft Report dated August 14, 1997. Management generally did not
agree with the recommendation. A summary of management and auditor comments follow, and
Appendix I contains verbatim management comments on the report.

        Management stated that it recognized that grants administration could be strengthened and
indicated that it had developed a corrective action plan. The plan, which was included as a part of
its response to the draft report, proposed an incremental approach to obtaining final reports. A
Financial Assistance Letter will be issued to provide additional guidance for contracting officers,
clarify waiver of final report requirements and responsibilities, and remind contracting and
program staff about the intended purpose of extensions. Additionally, management proposed
identifying best practices from field offices and sharing the information via the Financial
Assistance Handbook. Oversight will be provided through the results of individual contracting
activity self assessments.

        The Office of Inspector General agrees that the proposed actions are good initial steps to
enhance grants administration, but they may not be sufficient to ensure problems identified during
the audit are corrected. For example, reemphasizing existing policy without more prescriptive
measures to strengthen grants administration may not ensure that grantees comply with the terms
and conditions of financial assistance awards. Further, the Office of Inspector General does not
agree that self assessments by the contracting activities will be sufficient to determine success in
addressing reported weaknesses without validation of these assessments by management.

        In their comments, management stated that financial assistance awards represent less than
10 percent of DOE's budget. Management further stated that it did "not consider some problems
in obtaining final reports under financial assistance awards as identified in the audit to warrant a
high prioritization in light of other demands on procurement resources such as those resulting
from contract reform and the administration of the Department's major management and operating
contracts." The Office of Inspector General, in contrast, believes that not receiving deliverables
for an estimated 718 grants valued at $232 million is a significant problem that warrants
Departmental attention.

     Procurement's response addressed each component of the audit recommendation. A
summary of the management and auditor comments follows.

       Recommendation: Retain a portion of the grant funding until a grantee meets the terms
and conditions of award.

        Management Comments. Management disagreed with the audit conclusion that
Departmental regulations permit retainage of funds. Management cited provisions of the DOE
Financial Assistance Rules that require payment on an advance or reimbursement basis, depending
on a grantee's ability to maintain written procedures that minimize the time between receipt of
                                                 14
funds and disbursement. Management asserted that the Office of Inspector General did not cite a
specific authority for its proposed action. Procurement did not feel that authority existed to retain
grant funding in anticipation of problems with compliance, and indicated that changes to payment
provisions would require the approval of Office of Management and Budget.

        Auditor Comments. The Office of Inspector General's analysis indicated that the
regulations do not prohibit retention of grant funding. Based on the successful demonstration of
the benefits of retention at one DOE site, the auditors were of the opinion that it could become an
effective measure in administering grants Departmentwide. Further, we do not agree that changes
to the payment provision would need the approval of Office of Management and Budget because
of the pay provisions found in 10 CFR 600, which states that in order to be eligible for advance
funding, a grantee must demonstrate that "cash advances . . . shall be limited to the minimum
amounts needed and be timed to be in accordance with the actual, immediate cash requirements of
the recipient organization in carrying out the purpose of the approved program or project."

        As indicated in the report, grantees were generally allowed to draw down funds during the
grant's performance period. In many cases, grantees had drawn down all funds several years
before meeting the terms and conditions of the award, indicating that cash advances were neither
limited to minimum amounts nor appropriately timed.

      Recommendation. Discontinue the practice of waiving grant reporting requirements to
accommodate the award close-out process.

        Management Comments. Management did not concur. It stated that flexibility must
remain in the system or else the current backlog of inactive financial assistance awards would only
increase. Management indicated that its corrective action plan would clarify approval
requirements and circumstances for individual waivers of final reports and elevate approval from
contracting officer level to Procurement Director level.

        Auditor Comments. Clarifying waiver approval requirements and circumstances may not
be sufficient to reduce the number of reports that are waived to accommodate the award process.
Our audit showed that 11 of 110 grants (10 percent) were closed without the submission of final
deliverables after repeated attempts were made by the Department to obtain the missing
documents. Adoption of monitoring procedures (particularly with reference to subsequent
increases or decreases in the backlog of inactive grants) may be an excellent vehicle for measuring
grantee performance. It would enable the Department to determine if the practice of closing
grants for convenience is continuing or has ceased to be a problem.

        Recommendation. Require grantees to have met the terms and conditions of prior awards,
except in extenuating circumstances, before awarding new grants.

        Management Comments. Management felt that delaying or refusing to make an award
because of failure to submit the final report on an old project appeared to be an extreme measure
to solve a paperwork issue. The fact that final reports were not issued does not necessarily mean
that the work was not completed. In management's corrective action plan, it proposed using
PADS to identify problem grantees, pursuing reports or threatening future funding, and
withholding future awards or initiating debarment procedures in extreme cases.
                                                 15
        Auditor Comments. As detailed in the report, the purpose of a grant is to serve the public.
In awarding a grant instrument, the Department of Energy has a responsibility to ensure that the
programmatic objective of the grant is achieved and that funds are appropriately spent.
Submission of final technical and financial reports by grantees and the review of those reports by
Departmental personnel helps ensure that the goals set by the program and stipulated in the grant
instrument are met. Frequently, the only visible results of a grant are contained in technical
reports and publications, while other reports deal with financial management aspects.
Additionally, the Department has a responsibility to make technical reports available to the public.
To term the receipt of final reports a "paperwork issue" is to ignore the responsibility entrusted to
the Department by the public and the law.

        Management's solution does not mention any effort to determine whether any of these
actions would be effective. A Departmental decision not to award new grants when the terms and
conditions of previous awards have not been met could prove to be an effective tool needed to
motivate grantees to ensure that principal investigators meet grant terms and conditions and
demonstrate that grant funds indeed served the public. However, the policy must be developed
and tracked for effectiveness. Additionally, awarding offices should coordinate and review
individual grantees not only in relation to their own awarding offices, but on a Departmentwide
basis.

      Recommendation. Extend grant performance periods only in accordance with
Departmental policy.

       Management Comments. Management agreed that some guidance is appropriate and
pointed out that extensions are for accomplishing grant objectives, not to complete reports.
Management's corrective action plan suggests reminding contracting and program staff of the
purpose for issuing extensions.

        Auditor Comments. Simply reminding staff of the purpose for extensions may or may not
prove effective. Management's proposal did not include any definitive policy to track against.
The Department's policy at the time of audit did not address the propriety of extensions beyond
the one year limit. This policy was revised in March 1996. Prior to that date, the Department
could extend the period of a grant at its discretion, but extensions to the final budget period were
limited to 18 months. Included in the 18 months were any unilateral extensions initiated by the
grantee. As indicated on Page 9 of the report, inappropriate extensions were not rare. Of 92
grants with extensions reviewed, 20 grants were extended beyond 12 months--many for 24 or
more months. It has been standard for the Department to award grants with a project period of 3
years. A question of reasonableness presents itself when a presumably well-planned project that is
supposed to take 3 years turns into a project that will take 4 years, then 5 years, etc. Twelve
months appears to be a reasonable maximum for the extension of grant instruments based on the
Department's prior policy.

        Additionally, management did not detail procedures it would use to determine the
effectiveness of its reemphasis of existing policy. Without established mechanisms to determine
contracting and program staff compliance with policy, there will be no assurance that extensions
are granted for a reasonable time period--12 months. The Office of Inspector General suggests
                                                 16
that management conduct a comparative analysis of PADS information to determine which grants
are extended and obtain written documentation for reasons for the extensions. Another option
would be to create PADS data fields that would identify original completion dates and the number
and length of no-cost-time extensions.




                                              17
DOE F 1325.8
 (08-93)


United States Government
Department of Energy

memorandum
       DATE:

  REPLY TO
     ATTN OF:     HR-51

  SUBJECT:      Official Draft Report on “Audit of Departmental
                Receipt of Final Deliverables for Grant Awards”

                  TO:    Manager, Capital Regional Audit Office,
                Office of the Inspector General

                Based on the September 9, 1997, telecon and
                subsequent meetings with Bill Maharay and Darryl
                Wittenburg, and Matt Pollock, the following
                comments are provided in response to the Official
                Draft Report dated August 14, 1997.

                General Comment

                The recommendation set forth in the report resulted
                in four sub-recommendations and stated that the
                Deputy Assistant Secretary should “direct
                contracting officers.” We agree that
                “administration” can be enhanced or strengthened,
                but would suggest that “across-the-board”
                compliance with the measures listed in the report
                may not be feasible in some cases, or appropriate
                as discussed in our specific comments. We suggest
                the recommendation be worded to describe the
                performance objective that is desired, rather than
                listing prescriptive solutions, e.g. “We recommend
                that the Deputy Assistant Secretary for Procurement
                and Assistance Management strengthen Departmental
                administration of grants to ensure the receipt of
                financial and technical reports so that awards are
                closed in a timely manner.” The solutions to fix
                the problem have been identified by the Deputy
                Assistant Secretary and included in the corrective
                action plan. Policy guidance will be issued.
                Management of closeout activities is the
                responsibility of the contracting activity.
                Oversight will be accomplished through a
                contracting activity’s self assessment. The


                                        18
results of such assessments will be reported to
Headquarters.

As you know, closeout activities are not always a
priority at a contracting activity and, with
declining resources, followup actions are
frequently not as timely as desired. Like other
offices within the Department, procurement faces
many worthwhile competing demands for our limited
resources. We would not consider some problems in
obtaining final reports under financial assistance
awards as identified in the audit to warrant a high
prioritization in light of other demands on
procurement resources such as those resulting from
contract reform and the administration of the
Department’s major management and operating
contracts. Financial assistance comprises less
than ten percent of the Department’s procurement
and assistance budget.

Problems in obtaining final reports as well as
other grant administration issues will be addressed
by an interagency task force which is being
established to update OMB Circulars A-102 and A-
110. These circulars provide the government wide
administrative requirements for grants and
cooperative agreements.   In light of this, we do
not believe DOE should move out unilaterally on
this issue.



                                                      2

With respect to the subrecommendations identified
in the official draft as modified by fax from Bill
Maharay dated October 2, 1997, we offer the
following comments:

Recommendation 1: Retain a portion of the grant
funding until a grantee meets the terms and
conditions of the award.

Nonconcur. We disagree with the IG conclusion that
Departmental “regulations” permit this. The
regulations pertaining to payment are contained in
the DOE Financial Assistance Rules at 10 CFR
600.122 and 600.221. These requirements stem from
the OMB Circulars A-102 and A-110 which establish

                        19
the uniform administrative requirements for grants
and cooperative agreements. In accordance with
these requirements, a financial assistance
recipient shall be paid on an advance or
reimbursable basis. They shall be paid on an
advance basis provided they maintain written
procedures to minimize the time between receipt of
funds and disbursement and have adequate financial
management systems. If the recipient cannot meet
these requirements or if there are demonstrated
problems, then they are put on a reimbursable
payment method. The rules do not permit a Federal
agency to establish a different payment provision
applicable to all grantees which would withhold a
portion of funds under an advance payment method to
ensure compliance with reporting requirements.

The audit report states that Departmental policy
and precedent indicate that withholding a portion
of the grant funds is permissible. It never cites
specific authorities, but relies upon the cash
management requirements. Per the report, “cash
advances to a grant recipient shall be limited to
the minimum amounts needed and be timed to be in
accordance with the actual, immediate cash
requirements of the recipient organization”. This
means that we will advance funds to a recipient
based on their needs. It does not provide authority
to withhold a certain percentage of funds from all
grantees in anticipation of problems with
compliance.

To change the Payment provisions at 600.122 and
600.221 would require the approval of OMB As
mentioned earlier, a recently formed interagency
task force will be considering changes to the OMB
Circulars and based on discussions with the
Department of Health and Human Services who will be
chairing this task force the problem with obtaining
final reports and how to correct it will be
discussed and appropriate changes made.

Recommendation 2: Discontinue the practice of
waiving grant deliverable requirements to
accommodate the award close-out process.

We do not concur with this recommendation.
Instructing grant administrators to not close grant
instruments without the receipt of the final

                        20
reports would only serve to increase the current
backlog of inactive financial assistance awards.
We believe that some flexibility must remain in the
system to ensure that awards do not remain open
forever.   We also believe that the practice of
waiving grant deliverables will naturally decline
if we provide grant administrators guidance and
tools for obtaining final grant reports. We also
will require more consistency among the field
offices regarding approval of waivers.

Recommendation 3: Require grantees to have met the
terms and conditions of prior awards, except in
extenuating circumstances, before awarding new
grants.

Although we agree with this recommendation in
principal (i.e. terms and conditions should be
complied with), its practical application may be
more difficult.   Delaying the award of a new

                                                      3

project, or refusing to make an award because of a
failure to submit the final report on an old
project appears to be an extreme measure to solve a
paperwork issue. The fact that final reports were
not issued, does not necessarily mean that the work
was not completed. However, it may be appropriate
in those instances where we have repeated problems
with a particular recipient.

Recommendation 4: Extend grant performance period
only in accordance with Departmental policy.

We agree that some guidance is appropriate
regarding the appropriateness of extensions because
of the instances of improper use cited in the
report. Extensions in the period of performance are
for the purpose of accomplishing the grant
objectives and not to complete reports. The
recipient has 90 days after completion of the
project in which to submit the required reports.
There currently are no absolute guidelines for
reasonable extensions, however, we will explore
with the program project officials the feasibility
of establishing such guidelines.



                        21
We plan to take the following actions to correct
the problems:

1. Issue a Financial Assistance Letter that does
the following:

  A. Provides additional guidance to contracting
     officers concerning the closeout process and
     offer suggestions on how to obtain delinquent
     reports based on an incremental approach such
     as:

   .     At the outset, review reporting/information
       needs. Ensure grant award does not require
       more reports than are necessary which would
       unduly burden recipient and DOE staff.

   .     Use PADS data to identify problem grantees
       by overage closeout actions and then follow-
       up to determine if grantee failure to submit
       required reports is a systemic problem. Take
       action thru telecons, face-to-face meetings,
       etc., to discuss problems, obtain corrective
       action plans, advise of consequences (impact
       future funding, disallowance of costs,
       debarment, etc.)

   .     Issue follow-up letters over the
       Procurement Director’s signature to the head
       of the recipient organization rather than to
       the chief administrative/grants official.

   .     Advise the head of a recipient organization
       that has an ongoing relationship with DOE
       that future funding may be affected if
       delinquent reports are not submitted.

   .     Use the latest financial status report for
       determining costs under a grant. If a
       grantee fails to file a final financial
       status report, total grant costs would be
       based upon latest quarterly report submitted.

   .     In those extreme cases in which a recipient
       fails to respond to repeated requests to
       submit reports and comply with grant terms
       and conditions, contracting officers may
       withhold future awards or initiate debarment
       procedures. Prior to taking these actions,

                         22
      the contracting officer should coordinate
      with the Headquarter’s Office of Policy and
      legal counsel.


                                                       4

  B. Clarify approval requirements and
     circumstances for individual waivers of final
     reports and elevate approval from contracting
     officer level to Procurement Director level.

  C. Remind contracting and program staff that
     extensions to grant budget periods are for the
     purpose of continuing project activities and
     not to provide additional time to submit final
     reports.

2.Identify best practices by soliciting input from
  field offices through meetings, conferences
  (depending upon resources), telecons, and written
  responses concerning their processes and success
  stories. This information we would share with the
  field probably via the Financial Assistance
  Guidebook.

We plan to issue the Financial Assistance Letter in
the first quarter FY 1998 and the best practices
information by end of second quarter FY 1998.




                     (Signed)

         Gwendolyn S. Cowan, Acting Director
         Office of Procurement and Assistance Policy
         Office of Procurement and Assistance
           Management




                        23
                                                                Report No. DOE/IG-0415




                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

       1.      What additional background information about the selection,
               scheduling, scope, or procedures of the audit or inspection would
               have been helpful to the reader in understanding this report?

       2.      What additional information related to findings and
               recommendations could have been included in this report to assist
               management in implementing corrective actions?

       3.      What format, stylistic, or organizational changes might have made this
               report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General have taken
               on the issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we
have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector General
at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       U.S. Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.


                                                24
25
